Credit Card Agreement for SaksFirst World Elite Mastercard® in Capital One, N.A.
There are two parts to this Credit Card Agreement: Capital One Pricing Information and the Capital One Customer
Agreement. The Pricing Information shows a range of terms that includes both mail and online offers for new accounts
available under this Agreement as of June 30, 2021. The combination of terms that could apply to you may differ depending
on the specific card offer and on your creditworthiness at the time of application. The Customer Agreement contains
important information related to consumer credit cards issued by Capital One, N.A. If you are a current Capital One
cardholder, please log in to your account if you would like to request the Credit Card Agreement for your account(s).
CAPITAL ONE PRICING INFORMATION
Annual Percentage Rate (APR)
for Saks Purchases

23.99%.

APR for Non Saks Purchases

23.99%.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.
APR for Balance Transfers

23.99%.
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

26.99%.
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each Billing Cycle. We will not charge
you interest on new purchases, provided you have paid your previous balance in full by
the due date each month. We will begin charging interest on Cash Advances and Balance
Transfers on the transaction date.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Annual Fee

None.

Transaction Fees
• Balance Transfer

Either $15 or 3% of the amount of each transferred balance, whichever is greater.

• Cash Advance

Either $10 or 3% of the amount of each cash advance, whichever is greater.

Penalty Fees
• Late Payment

Up to $40.

How Do You Calculate My Balance? We use a method called “average daily balance (including new transactions).” See the
“How Do You Calculate The Interest Charge?” section.
What Are My Billing Rights? Information on your rights to dispute transactions and how to exercise those rights is provided
in the “Billing Rights Summary” on your Statement and other Truth-in-Lending Disclosures.
THINGS YOU SHOULD KNOW ABOUT THIS CARD
How Do You Calculate My Variable Rates? Your variable rates may change when the Prime Rate changes. We calculate
variable rates by adding a percentage to the Prime Rate published in The Wall Street Journal on the 25th day of December,
March, June and September. If the Journal is not published on that day, then see the immediately preceding edition. Variable
rates will be updated quarterly and will take effect on the first day of your Billing Cycle which begins in January, April, July
and October: Saks Purchase APR: Prime plus 20.74%; Non Saks Purchase APR: Prime plus 20.74%; Balance Transfer APR:
Prime plus 20.74%; Cash Advance APR: Prime plus 23.74%. Any increase in the Prime Rate may increase your Interest
Charges and your Minimum Payment.
What Are The Daily Periodic Rates Used To Calculate My Interest? The daily periodic rate for your Saks Purchase APR is
0.06573%, Non Saks Purchase APR is 0.06573%, Balance Transfer APR is 0.06573%, and Cash Advance APR is 0.07395%.
See the “How Do You Calculate The Interest Charge?” section.
How Do You Calculate The Interest Charge? We use a method called Average Daily Balance (including new transactions).
Under this method, we first calculate your daily balance; for each Credit Plan, we 1) take the beginning balance and add in
new transactions and the periodic interest charge on the previous day’s balance, then 2) subtract any payments and credits
for that Credit Plan as of that day. The result is the daily balance for each Credit Plan. However, if you paid your previous
month’s non-promotional purchases balance in full (or if your balance was zero or a credit amount), new transactions which
post to your purchase or special purchase Credit Plans are not added to the daily balances. Also, transactions subject to a
grace period are not added to the daily balances.

Next, to find your Average Daily Balance we: 1) add the daily balances together for each Credit Plan, and 2) divide the sum by
the number of days in the Billing Cycle.
At the end of each Billing Cycle, we determine your Interest Charge as follows: 1) multiply your Average Daily Balance by the
daily periodic rate (APR divided by 365) for each Credit Plan other than Same As Cash Credit Plans, and 2) multiply the result
by the number of days in the billing period. For Same As Cash Credit Plans, if interest is applied, the interest is accrued from
the transaction date of the purchase through the current Billing Cycle. The Interest Charge for Same as Cash Credit Plans is
the total of:
• the applicable daily periodic rate (APR divided by 365) for the current Billing Cycle times the daily balance for each day in
the current Billing Cycle; plus
• the applicable daily periodic rate for each prior Billing Cycle times the daily balances of the Credit Plan for each day during
each prior Billing Cycle.
We add the Interest Charges for all Credit Plans together. The result is your total Interest Charge for the Billing Cycle.
NOTE: Due to rounding or a minimum interest charge, this calculation may vary from the Interest Charge actually assessed.

© 2021 Capital One. Capital One is a federally registered service mark. All rights reserved. Mastercard is a registered
trademark, and the circles design is a trademark of Mastercard International Incorporated. Products and services offered by
Capital One, N.A. Capital One supports information privacy protection: see our website at www.capitalone.com.

Capital One® Customer Agreement
Welcome to Capital One

for purchases at Saks Fifth Retailers, purchases at nonSaks Fifth Retailers and Cash Advances.
You are responsible for keeping track of your Credit Plan
balances and your available credit. You must manage your
Account to remain below your credit limits. We may honor
transactions above your credit limits, but if we do these
transactions will not increase your credit limit. You are
responsible for paying for any transaction you make above
your credit limits.
We may also increase, decrease, restrict or cancel your
credit limit on any Credit Plan at any time. This will not
affect your obligation to pay us.

Thank you for opening a credit card account with us.
This Customer Agreement, including any changes to it
(“Agreement”), contains the terms of your agreement with
Capital One.

Definitions

The meanings of the terms you see in italics appear in the
Glossary section at the end of this Agreement.
As used here, “you” and “your” mean each applicant and
co-applicant for the Account; any person responsible
for paying the Account; and any person responsible for
complying with this Agreement. “We,” “us,” “our,” and
“Capital One” mean Capital One, National Association; and
its agents, authorized representatives, successors, and
assignees. “Saks Fifth Retailers” means Saks Fifth Avenue
or Saks Fifth Avenue OFF FIFTH retail locations operating
within the United States, online websites or telephone order
centers. If your SaksFirst Mastercard is accepted in Saks
Fifth Avenue retailers operating outside the United States,
these will be considered non-Saks purchases.

Using Your Account

(1) This Agreement applies whether or not you use your
Card or Account. It will continue to apply even after
your Account is closed, as long as you have a balance.
(2) You must sign the Card immediately when you receive it.
(3) You must return the Card to us or destroy it if we ask
you to.
(4) You must take reasonable steps to prevent the
unauthorized use of your Card, Access Checks
and Account.
(5) We may decline to authorize a transaction for any
reason. This may occur even if the transaction would
not cause you to go over your credit limit or your
Account is not in default.
(6) We are not responsible for any losses you incur if we
do not authorize a transaction.
(7) We are not responsible for any losses you incur if
anyone refuses to accept your Card for any reason.
(8) Unless we tell you otherwise, we will bill each
transaction to the applicable Credit Plan of your
Account. We will apply it against your available credit
for that Credit Plan.
(9) You must not use, or try to use, the Card for any illegal
activity. You are responsible for any charges if you do.
(10) We are not liable for any losses that may result when
our services are unavailable due to reasons beyond
our control.
(11) You may use your Account for purchases anywhere
Mastercard is accepted, and you may obtain Cash
Advances and Transfers as permitted for your Account.
You may not use these to pay any amount you owe us
or any other company in the Capital One organization.

Account Documents

The following documents govern your Account with us:
(1) this Agreement;
(2) all Statements;
(3) any privacy notices;
(4) your Card benefits brochure which describes benefits
provided by the Payment Card Network for your Account;
(5) all disclosures and materials provided to you before or
when you opened your Account;
(6) any other documents and disclosures relating to your
Account, including those provided online; and
(7) any future changes we make to any of the above.
Please read these carefully and keep them for future
reference.

New Offers

In the future, we may provide you with new offers that we
think may interest you. The terms of these offers may differ
from the standard terms on your Account. This Agreement
will still apply.

Account Information

We need information about you to manage your Account.
This includes:
(1) your legal name;
(2) a valid U.S. mailing address and residential address
(if different);
(3) your date of birth;
(4) your Social Security number or other government
identification number;
(5) your telephone number(s); and
(6) your employment and income information.
You must tell us when this information changes. We may
ask you for additional documents to verify any changes. We
may restrict or close your Account if we cannot verify your
information, or if you do not provide it as requested.

Rewards

Your Account may provide you with the opportunity to earn
rewards. If it does, we will separately provide you with
information and terms about the rewards.

Promotional Credit Plans

From time to time, we may offer one or more promotional
Credit Plans prior to, or at the time of, your purchase. Only
certain purchases may be eligible for promotional Credit
Plans. These Credit Plans may have special repayment
terms and are conditioned on your timely payment of at
least the required payment amount each Billing Cycle.
1. Waived Interest Charge — With this offer there are no
Interest Charges on your purchases for a specified period.
2. Reduced Rate — With this offer, you will receive
a reduced Annual Percentage Rate (APR) on your
purchase for a specified period.
3. Same as Cash / Monthly Payment — With this plan,
there are no Interest Charges on your purchase if you
repay the full cash price of the purchase before the

Credit Limits

When you open your Account, we will tell you your credit
limits. These will also appear on your Statement. We
may also refer to your credit limits as your credit lines.
We may give you different credit limits for different types
of transactions or for the different Credit Plans of your
Account. For example, you may have different credit limits
1

promotional expiration date shown on your Statement.
If you do not repay in full by the promotional expiration
date, Interest Charges will be imposed on the
promotional purchase from the purchase date.

(2) not pursue any claim or reimbursement of the transaction
amount from the merchant or any other person; and
(3) help us get reimbursement from others.

No Warranties

Using a PIN

We are not responsible for any claim you may have
regarding the purchase of goods or services made with
your Card beyond your rights described in the “Billing
Rights Summary” on your Statement.

We may give you a personal identification number (PIN).
For security reasons, you may have to provide the PIN
before you are able to use your Card.
Keep your PIN secure. Do not write it down, give it
to anyone, or keep it with your Card. If you lose your
Card or believe the confidentiality of your PIN has been
compromised for any reason, you must contact Customer
Service immediately.

Lost or Stolen Card

If your Card is lost or stolen or if you think someone else
may be using your Card or Account number without your
permission, you must contact Customer Service immediately.
You will not be responsible for transactions on your Account
that we find are unauthorized.
If we reimburse you for unauthorized transactions, you will
help us investigate, pursue and get reimbursement from
the wrongdoer. Your help includes giving us documents in a
form that we request.

Authorized Users

If you ask us to issue a Card to any other person, they are
an Authorized User. We may require certain information
about them. We may limit their ability to use your Card.
They may have access to certain information about your
Account. You will be responsible for their use of the
Account and anyone else they allow to use your Account,
even if you did not want, or agree to, that use.

Interest Charges and Fees

We will charge Interest Charges and Fees to your Account
as disclosed on your Statement and other Truth-in-Lending
Disclosures. In general, Interest Charges begin to accrue
on any unpaid amount from the date of the transaction, date
the transaction is processed or the first day of the Billing
Cycle. However, we will not charge you interest on any new
transactions posted to the purchase Credit Plan of your
Account if you pay your “New Balance” in full by the due date
on your Statement each month. If you did not pay your “New
Balance” in full when due for a Billing Cycle, interest will
continue to accrue between the time that we calculate your
“New Balance,” as reflected on your Statement, and when
we receive your payment. This interest will post on your
next Statement. That is why if you start accruing Interest
Charges, you generally must pay your “New Balance” in full
for two consecutive Billing Cycles before Interest Charges
stop posting to your Statement. Please note, however, that
Interest Charges will begin accruing immediately for any
Cash Advances and other transactions that do not post to
the purchase Credit Plan.
From time to time, we may offer Transfers or promotional
purchase financing that do allow you to pay less than
the statement “New Balance” and still avoid interest on
any new transactions that post to the standard purchase
balance. However, in these cases you must pay in full
transactions that are posted to the standard purchase
balance and any Cash Advance balance, plus at least the
minimum payment amount for all other balances on the
account by the due date each month. We may also display
an interest saver payment amount on your statement, if
applicable, for your convenience.
For Same as Cash Credit Plans, we will not charge you
interest on your promotional purchase if you repay the full
amount of the purchase before the expiration date shown
on your Statement. If you do not repay the promotional
purchase in full by the expiration date, Interest Charges will
be imposed on the promotional purchase from the date of
the purchase.
We will generally treat Fees as non-Saks purchase
transactions unless otherwise specified below. These
Fees apply to your Account only if your Truth-in-Lending
Disclosures provide for them. We may increase your Interest
Charges and Fees as described in the Changes to Your
Agreement section or in your Truth-in-Lending Disclosures.

Removing an Authorized User

If you want to remove an Authorized User from your
Account, you must contact Customer Service and request
their removal. You also must immediately destroy all Cards
in their possession and cancel any arrangements they may
have set up on your Account. They will be able to use your
Account until you have notified us that you are removing
them from your Account. During this time, you will still be
responsible for all amounts they charge to your Account.
You will be responsible even if these amounts do not
appear on your Account until later.
Authorized Users may remove themselves from your
Account upon request. We reserve the right to remove
them from your Account for any reason. To remove them
from your Account, we may close your existing Account
and issue a new Card with a new Account number.

Your Promise to Pay

You promise to pay us all amounts due on your Account.
This includes amounts where you did not sign a purchase
slip or other documents for the transaction. We will treat
transactions made without presenting your actual Card
(such as for mail, telephone, Internet, or mobile device
purchases) the same as if you used the Card in person. If
you let someone else use your Card, you are responsible
for all transactions that person makes.

Statements

We will generally send, or make available to you, one
Statement for all Cards on your Account at the end of each
Billing Cycle. Under certain circumstances, the law may not
require us to send, or make available to you, a Statement,
or may prohibit us from doing so.

Disputed Transactions

You must inspect each Statement you receive. Tell us about
any errors or questions you have, as described in the “Billing
Rights Summary” on your Statement and other Truth-inLending Disclosures. If you do not notify us of an error, we
will assume that all information on the Statement is correct.
If we credit your Account for all or part of a disputed
transaction, you give us all of your rights against others
regarding that transaction. You will also:
(1) give us any information about the disputed transaction,
if we ask;
2

Late Payment Fee

We may use the information from an Item to create an
electronic image. We may collect and return the image
electronically. This electronic image may also be converted
to a substitute check and may be processed in the same
way we would process an Item. We will not be responsible
if an Item you provide has physical features that when
imaged result in it not being processed as you intended.

We may charge you this Fee if we do not receive your
payment as instructed on your Statement by the payment
due date.

Minimum Payment

You must pay us at least the minimum payment amount by
the payment due date. Your Statement will tell you:
(1) the minimum payment due,
(2) your new balance,
(3) the payment due date, and
(4) an explanation of when the payment must reach us for
us to consider it received as of that date.
Returns and other credits to your Account will reduce your
Account balance, but they will not change your minimum
payment amount.
In addition to the minimum payment, you may pay all or
part of the total balance on your Account. But, you must
still pay at least the minimum payment amount each month,
even if you paid more than the minimum payment due on
the previous Statement. We will continue to charge Interest
Charges during Billing Cycles when you carry a balance
regardless of whether your Statement includes a minimum
payment that is due. If your Account is 180 days past due,
is part of a bankruptcy proceeding or is otherwise charged
off, the total balance is immediately due and payable.

How We Apply Your Payments

Your Account may have Credit Plans with different Annual
Percentage Rates (APR). For example, purchases may
have a lower APR than Cash Advances. If your Account
has Credit Plan balances with different APRs, here is how
we apply payments in a Billing Cycle:
(1) We generally apply credits and payments up to your
minimum payment first to the balance with the lowest
APR, and then to balances with higher APRs.
(2) We apply any part of your payment exceeding your
minimum payment to the balance with the highest APR,
and then to balances with lower APRs.
If your Account has a Same as Cash Credit Plan balance,
we will treat that balance as having a 0% APR for this
purpose, until the last two Billing Cycles of the promotional
period. During the last two full Billing Cycles of the
promotional period, we will apply payments exceeding the
minimum payment to the Same as Cash Credit Plan(s) that
is expiring, in the order of expiration date.

Making Payments

Items with Restrictive Words, Conditions,
or Instructions

Your payment must be made in U.S. dollars from a U.S.
deposit account in a form acceptable to us. We do not
accept cash payments through the mail. You may not make
payments with funds from your Account or any other credit
account with us or any other company in the Capital One
organization. You must send mailed payments to us as
instructed on your Statement, unless we tell you otherwise.

You must mail all Items bearing restrictive words,
conditions, limitations, or special instructions to:
Capital One
P.O. Box 1330
Charlotte, NC 28201-1330
This includes Items marked “Paid in Full” or similar
language. This also includes all accompanying
communications.
If you make such a payment or send any accompanying
communications to any other address, we may reject it
and return it to you. We may also accept it and process it
without losing any of our rights.

Other Payment Services

We may make services available that allow you to make
faster or recurring payments online or by telephone. We
will describe the terms for using these services and any
applicable Fee before you use them. You do not have to
use these other payment services.
We are not responsible if your financial institution rejects a
payment made using our payment services.
If you ask someone else to make a payment for you, we
may provide that person with limited Account information
necessary to set up and process that payment. We may
also refuse to accept that payment. If we do accept it, you
will be responsible for that payment even if a financial
institution rejects it.

Credit Balances

We may reject and return any payment that creates or adds
to a credit balance on your Account. Any credit balance
we allow will not be available until we confirm that your
payment has cleared. We may reduce the amount of any
credit balance by any new charges. You may write to the
address provided on your Statement or call Customer
Service to request a refund of any available credit balance.

Payment Processing

Account Default

We may accept and process payments without losing any
of our rights. We may delay the availability of credit until we
confirm that your payment has cleared. This may happen
even if we credit your payment to your Account. We may
resubmit and collect returned payments electronically. If
necessary, we may adjust your Account to correct errors,
process returned and reversed payments, and handle
similar issues.
When you send us an Item as payment, you authorize
us to make a one-time electronic fund transfer from your
deposit account. You also authorize us to process the
payment as an Item. We may withdraw the funds from
your deposit account as early as the same day we receive
your payment. You will not receive your Item back from
your bank. We will provide additional information about this
process on your Statement.

You will be in default if:
(1) you do not make any payment when it is due;
(2) any payment you make is rejected, not paid or cannot
be processed;
(3) you exceed a credit limit;
(4) you file or become the subject of a bankruptcy or
insolvency proceeding;
(5) you are unable or unwilling to repay your obligations,
including upon death or legally declared incapacity;
(6) we determine that you made a false, incomplete or
misleading statement to us, or you otherwise tried to
defraud us;
(7) you do not comply with any term of this Agreement or
any other agreement with us; or
(8) you permanently reside outside the United States.
3

The Law That Applies to Your Agreement

If you are in default, we may take certain actions with
respect to your Account. For example, depending on the
default, we may take the following actions, without notifying
you, unless the law says that we must give you notice:
(1) charge you Fees, or change the APRs and Fees on
your Account, if provided in your Truth-in-Lending
Disclosures;
(2) close or suspend your Account;
(3) lower your credit limit(s);
(4) demand that you immediately pay the total balance
owing on your Account;
(5) continue to charge you Interest Charges and Fees as
long as your balance remains outstanding; and/or
(6) file a lawsuit against you, or pursue another action that
is not prohibited by law. If we file a lawsuit, you agree to
pay our court costs, expenses and attorney fees, unless
the law does not allow us to collect these amounts.

We make decisions to grant credit and issue you a Card
from our offices in Virginia. This Agreement is governed
by applicable federal law and by Virginia law. If any part of
this Agreement is unenforceable, the remaining parts will
remain in effect.

Waiver

We will not lose any of our rights if we delay or choose not
to take any action for any reason. We may waive our right
without notifying you. For example, we may waive your
Interest Charges or Fees without notifying you and without
losing our right to charge them in the future.

Assignment

This Agreement will be binding on, and benefit, any of your
and our successors and assigns. You may not sell, assign
or transfer your Account or this Agreement to someone else
without our written permission.
We may sell, assign or transfer your Account and this
Agreement without your permission and without prior notice
to you. Any assignee or assignees will take our place under
this Agreement. You must pay them and perform all of your
obligations to them and not us. If you pay us after we notify
you that we have transferred your Account or this Agreement,
we can return the payment to you, forward the payment to the
assignee, or handle it in another way that is reasonable.

Communications

You agree that we may communicate with you by mail,
telephone, email, fax, prerecorded message, automated
voice, text message or other means allowed by law
regarding your Account.
You agree that we may contact you at any telephone number
(including a mobile telephone number that you provide us),
and use an automated telephone dialing system or similar
device to do so. You agree that we may monitor or record
any conversation or other communication with you.

Access Checks

We may provide you with Access Checks. If we do, we will
tell you at the time if we consider them purchases, Cash
Advances or Special Transfers.
Only the person we designate may use Access Checks.
You may not use them to pay any amount you owe us or
any other company in the Capital One organization. We
may reject and not pay any Access Check if:
(1) your Account is past due, charged off, bankrupt,
lost/stolen or closed;
(2) we suspect fraud;
(3) your Account is over the credit limit; or
(4) the check has expired, is damaged or cannot otherwise
be processed.
Our liability if we do not pay an Access Check will never be
more than (1) your actual damages or (2) the amount of the
Access Check, whichever is less.
Use of an Access Check is not the same as using your
Card. When you use an Access Check, you will have fewer
rights to dispute merchant transactions than with uses
of your Card. Please see the “Billing Rights Summary”
on your Statement and your other Truth-in- Lending
Disclosures for more information.

Credit Reports

We may report information about your Account to credit
bureaus and others. Late payments, missed payments, or
other defaults on your Account may be reflected in your
credit report. Information we provide may appear on your
and the Authorized Users’ credit reports.
If you believe that we have reported inaccurate information
about your Account to a credit bureau or other consumer
reporting agency, notify us in writing at Capital One, P.O.
Box 31293, Salt Lake City, UT 84131-1293. When you
write, tell us the specific information that you believe is
incorrect and why you believe it is incorrect.
We may obtain and use credit, income and other information
about you from credit bureaus and others as the law allows.

Closing or Suspending Your Account

You may contact Customer Service to ask us to close
your Account.
We may close or suspend your Account at any time and for
any reason permitted by law, even if you are not in default.
If we close or suspend your Account for any reason,
you must stop using your Card. You must also cancel all
billing arrangements set up on the Account. If we close or
permanently suspend your Account, you must return or
destroy all Cards. You must still pay us all amounts you
owe on the Account.

Stopping Payment of Access Checks

You may request a stop payment on any Access Check by
contacting Customer Service.
We will have a reasonable amount of time after your
stop payment request to research and complete the stop
payment. We will not be responsible if we cannot complete
the stop payment. Reasons include:
(1) the Access Check was already paid;
(2) you do not give us the information we asked for; or
(3) the information you gave us was incorrect.
We do not have to release the stop payment order unless
the account holder who made the request asks us to.
If we re-credit your Account after a valid stop payment
order, you give us all of your rights against the payee or
other holder of the paid Access Check. You also agree to

Changes to Your Agreement

At any time, we may add, delete or change any term of
this Agreement, unless the law prohibits us from doing so.
We will give you notice of any changes as required by law.
We may notify you of changes on your Statement or in a
separate notice. Our notice will tell you when and how the
changes will take effect. The notice will describe any rights
you have in connection with the changes.
Your variable APRs (if applicable) can go up or down as the
index for the rate goes up or down. If we increase your APRs
for any other reason, or if we change your Fees or other
terms of your Account, we will notify you as required by law.
4

help us in any legal action we may later take against the
payee or other holder of the check.

• “Fees” means charges imposed on your Account not
based on the Annual Percentage Rates.
• “Interest Charges” means any charges to your Account
based on the application of Annual Percentage Rates.
• “Item” means a check, draft, money order or other
negotiable instrument you use to pay your Account. This
includes any image of these instruments. This does not
include an Access Check.
• “Payment Card Network” means the network
provider displayed on your Card. This may be Visa Inc.,
Mastercard International Incorporated, or any other
network provider.
• “Special Transfer” means a Transfer posted to a Credit
Plan of your Account that is not a purchase or Cash
Advance Credit Plan.
• “Statement” means a document showing important
Account information, including all transactions billed to
your Account during a Billing Cycle and information about
what you must pay. We may also refer to your Statement
as a “Periodic Statement” or a “Billing Statement”.
• “Transfers” means amounts transferred from other
accounts to this Account and includes Balance Transfers
and Special Transfers.
• “Truth-in-Lending Disclosures” means disclosures that
the federal Truth in Lending Act and Regulation Z require for
any Account. This includes your application and solicitation
disclosures, Account opening disclosures, subsequent
disclosures, Statements, and change in terms notices.

Cash Advance Fee

We may charge you this Fee each time you take out a
Cash Advance. We will treat this Fee as a Cash Advance
transaction.

Transfer Fee

We may charge you this Fee each time you make a Transfer.
We will charge the Fee to the same Credit Plan where we
post the Transfer.

Transactions Made in Foreign Currencies

If you make a transaction in a foreign currency, the
Payment Card Network will convert it into a U.S. dollar
amount. The Payment Card Network will use its own
currency conversion procedures. The conversion rate
in effect on the processing date may differ from the rate
in effect on the transaction date that appears on your
Statement. We do not adjust the currency exchange rate or
charge any currency conversion Fees.

Glossary

• “Access Check” means any check we send to you to
access credit from your Account. We may also refer to
an Access Check as a “convenience check” or a
“purchase check”.
• “Account” means your Card Account with us.
• “Authorized User” means a person who may use the Card,
but is not responsible for the repayment of the Account.
• “Balance Transfer” means an amount posted to the
Balance Transfer Credit Plan of your Account unless
otherwise described in your Truth-in-Lending Disclosures.
• “Billing Cycle” means the period of time reflected
on a Statement. This period may vary in length, but is
approximately 30 days. You will have a Billing Cycle even if
a Statement is not required. We will often specify a Billing
Cycle by the month in which its closing date occurs. For
example, a “March Billing Cycle” will have a closing date
in March. We may also refer to a Billing Cycle as a “Billing
Period”. If your Account balance has charged off, we may
switch to quarterly Billing Cycles for your Account.
• “Card” means any Capital One credit card associated
with your Account. This includes all renewals and
substitutions. It also means any other access device for
your Account we give you that allows you to obtain credit,
including any Account number.
• “Cash Advance” means a loan in cash or things we
consider cash equivalents, including wire transfers,
travelers’ checks, money orders, foreign currency,
lottery tickets, gaming chips, and wagers. We post Cash
Advances to the Cash Advance Credit Plan of your
Account and not to your purchase Credit Plan.
• “Credit Plans” mean the different parts of your Account
we may establish that are subject to unique APRs, pricing,
or other terms. These may be individual purchases, or
they may be combined balance types such as Balance
Transfers and Cash Advances which are under same
terms. The sum of your Credit Plan balances equals your
total Account balance.

© 2021 Capital One
Capital One is a federally registered service mark.
All rights reserved.
BR411790

M-131726

5

COF Customer Agreement 435

